oN

2311 Douglas Street CC ICKL E 5 E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact(@cocklelegalbriefs.com
ISt, 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 21-144

SEATTLE’S UNION GOSPEL MISSION,
Petitioner,
Vv.
MATTHEW S. WOODS,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), | certify that the BRIEF OF AMICI CURIAE
20 CURRENT AND FORMER WASHINGTON STATE LEGISLATORS IN SUPPORT OF
PETITIONER in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes. and this brief contains 5008 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and swarn to before me this 31st day of August, 2021.
fam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL HOTARY-State of Rebraska & hb
RENEE J. GOSS 0. ¢ ). ‘ dia ”

My Comm. Exp. September 5, 222
Notary Public Affiant 41387
